                              CLOSEOUT FOR M91110044
                                                  the subject and a faculty member a-t




letter contained slanderous information about her and that NSF program officers were among
the recipients of the widely distributed letter.

       Shortly thereafter OIG determined that two rogram officers, d                          31)
               then program officers in the   &
                                in the Directorat
                                                              Program within the Division     m
had received the consultant's letter, and that it had been placed in the subject's grant jacket. '
OIG reviewed the grant jacket and removed the letter, selected diary notes about this matter, and
electronic mail messages exchanged by one of the program officers and the subject that discussed
the contents of the letter. These materials were placed in OIG's confidential frle on the case.

        Upon reviewing the letter, OIG determined that the primary focus of the consultant's
concern was a proposal to a private foundation, naming the consultant and the subject as co-PIS,
that had been written by the consultant. The proposal had been solely awarded to the.subject.
016 learned that after the two had decided to submit a joint proposal, the subject had given the
consultant two of her previous proposals to assist the consultant's preparation of the private
foundation proposal. Text from the two proposals appeared in the private foundation proposal.
One of the factors influencing the foundation's decision to make the award to the subject was
that the consultant was relocating to another country which would make it more difficult for her
to participate in the project. OIG concluded that the consultant's objections to the private
foundation's decisions were not NSF-related and not within NSF's jurisdiction.

       In her letter, the consultant also made a variety of negative comments about the subject's
general ability to conduct her research. She claimed that the subject was inexperienced and
found it difficult to perform her research without the consultant's assistance, that she relied on
the consultant's assistance when preparing part of her NSF grant, that she spent insufficient time
"in the field," and that the subject's actions adversely affected the careers of several graduate
students.




                                          Page 1 of 3
                                 CLOSEOUT FOR MBl ldgW)46

            The subject contacted 016 and provided a copious amount of material responding to these
    comments. OIG learned that the NSF award was the subject's first and that the award described
    anthropological field studies in a foreign country which were to be performed while the subject
    was both on- and off-site, She had consulted with a number of scientists when preparing her
    grant and had budgeted funds for the consultant in her grant, She had employed the consultant
    to assist her in selected aspects of the NSF-hndd research.

            The consultant lived in the foreign country where the subject's research was conducted
    and was able to provide oversight on the project during those extended periods of time when the
    subject was required to be at her US institution. Eventually the two developed a more
    collaborative relationship which resulted in the joint submission of the private foundation
    proposal. Unfortunately, the consultant dso began to move the subject's research project in
    directions the subject disagreed with, and these disagreements eventually led to the subject's
    dismissal of the consultant. The consultant wanted to have, or permitted, two graduate students
    to work on the subject's NSF-supported project. The latter occurred without the subject's
    knowledge. OIG Amed that after becoming aware of the consultant's decisions the subject
    objected to the students' planned or actual participation in her project.

            OIG determined that the negative comments the consultant made about the subject's
    ability and research progress on her NSF grant in the letter received by the program officers
    were focussed on her grant management skills. These skills are most appropriately evaluated
    by program officers, and are reflected in a PI'S research progress and results. Each year of a
    multi-year award, PIS are required to submit a progress report that describes their progress in
    that year. They must submit a summary of progress on prior NSF grants in a Resultsffom Prior
    NSF Slkpgon statement that accompanies subsequently submitted NSF proposals. Program
    officers evaluate each progress report prior to providing the subsequent year's hnding on multi-
    year awards, and Prior Support statements are evaluated by peer reviewers and program officers
    as part of the competitive peer review that is integral to the funding process. Hence, the issues
    raised by the consultant in this case are not a matter for 0IG9sconsideration.

           Materials provided by the subject suggested that the consultant had not reimbursed the
    NSF grant for all the funds the subject had advanced to the consultant and that the consultant
    was not releasing data to the subject that was collected under the subject's NSF award. The
    subject reviewed her fmancial records and determined that, while the funds had not been
    reimbursed to the NSF grant, the consultant had spent it on salaries for two of the subject's
    research assistants. OIG subsequently learmed that the consultant bad deposited the data at the
    research institution with which the subject was affiated thereby providing her free access to the
I   data.




                                              Page 2'of 3
        Excluding the financial and data access issues, OIG concluded that the other issues raised
in this case were either grant management issues most appropriately assessed by program staff
or did not fall within NSF9sjurisdiction, OIG learnd that both the financial and data access
issues had been satisfactorily resolved and there was no need for 016 to pursue them further.

       Therefore, OIG closed this inquiry, and no further action will be taken in this case.



cc:    Staff Scientist, Deputy AIG-Oversight, NG-Oversight, IG




                                           Page 3 of 3
